Department of Homeland Security
   Ofﬁce of Inspector General


        Federal Emergency Management Agency 
 

 Faces Challenges in Modernizing Information Technology
 





OIG-11-69                                        April 2011
                                                            Office ofInspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                                             Homeland
                                                             Security
                                   APR OJ 2011


                                               Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was established
by the Homeland Security Act of2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared as
part of our oversight responsibilities to promote economy, efficiency, and effectiveness within
the department.

This report addresses the strengths and weaknesses of the Federal Emergency Management
Agency's information systems. It is based on interviews with employees and officials of
relevant agencies and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office,
and have been discussed in draft with those responsible for implementation. We trust this report
will result in more effective, efficient, and economical operations. We express our appreciation
to all of those who contributed to the preparation of this report.
                                        /!
                                    ~A
                                    Frank: 'lY--:7.1.!Y
                                             e
                                     Assistant nspector General
                                     Information Technology Audits
Table of Contents/Abbreviations
Executive Summary ........................................................................................................................ 1 
 


Background ..................................................................................................................................... 2 
 


Results of Audit .............................................................................................................................. 7 
 


    FEMA Needs Effective IT Planning to Guide Modernization Efforts ...................................... 7 
 


    IT Needs Throughout FEMA Are Not Well Understood ........................................................ 16 
 


    IT Infrastructure Improvements Have Been Made, But Further Improvements Are 

    on Hold .................................................................................................................................... 21 


    Conclusion ............................................................................................................................... 28 
 


Recommendations......................................................................................................................... 29 
 


Management Comments and OIG Analysis ................................................................................. 30 
 




Appendices

     Appendix A:          Purpose, Scope, and Methodology ………………….......... …………………32
 

     Appendix B:          Management Comments to the Draft Report………… ......... ………………..34 
 

     Appendix C:          Major Contributors to this Report……………………… ........... ………….....42 
 

     Appendix D:          Report Distribution……………………………………….......... …………….43 
 



Abbreviations
     ADD                         Automated Deployment Database 
 

     CIO                         Chief Information Officer 
 

     DHS                         Department of Homeland Security 
 

     EADIS                       Enterprise Application Development Integration Sustainment 
 

     EAO                         Enterprise Architecture Office            
             

     EMMIE                       Emergency Management Mission Integrated Environment 
 

     FEMA                        Federal Emergency Management Agency 
 

     FY                          fiscal year              
              

     GAO                         Government Accountability Office 
 

     IFMIS                       Integrated Financial Management Information System
 

     IT                          information technology                
               

     LIMS III                    Logistics Information Management System III 
 

     LSCMS                       Logistics Supply Chain Management System
 

Table of Contents/Abbreviations
   MD                       Management Directive
   NEMIS                    National Emergency Management Information System
   OCIO                     Office of the Chief Information Officer
   OIG                      Office of the Inspector General
   OMB                      Office of Management and Budget
   SELC                     Systems Engineering Life Cycle
   TASC                     Transformation and Systems Consolidation
   TAV                      Total Asset Visibility


List of Figures
  Figure 1: FEMA Organizational Structure as of September 2010 ..............................................2 
 


  Figure 2: OCIO Organizational Structure as of May 2010 ........................................................ 3 
 


  Figure 3: OCIO’s IT Infrastructure Modernization Initiatives................................................... 7 
 


  Figure 4: IT Strategic Planning Approach ............................................................................... 11 
 


  Figure 5: FEMA IT Spending for FY 2010.............................................................................. 18 
 


  Figure 6: DHS SELC Stages .................................................................................................... 19
 

OIG 
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                      We audited the Federal Emergency Management Agency’s efforts
                      to provide the information systems needed to support its disaster
                      response mission operations. The objective of our audit was to
                      determine whether the agency’s information technology
                      modernization approach adequately addresses planning,
                      implementation, and management to support efficient and effective
                      disaster relief assistance. The scope and methodology of this audit
                      are discussed further in Appendix A.

                      The agency’s existing information technology systems do not
                      support disaster response activities effectively. The agency has a
                      number of information technology infrastructure modernization
                      initiatives under way. However, it does not have a comprehensive
                      information technology strategic plan with clearly defined goals
                      and objectives or guidance for program office initiatives. In
                      addition, it has not completed its efforts to document the agency’s
                      enterprise architecture. Without these critical elements, the agency
                      is challenged to establish an effective approach to modernize its
                      information technology infrastructure and systems.

                      In addition, the Office of the Chief Information Officer does not
                      have an adequate understanding of existing information technology
                      resources and needs throughout the agency. Specifically, the office
                      does not have a complete, documented inventory of its systems to
                      support disasters. Further, program and field offices continue to
                      develop information technology systems independently of the
                      office and have been slow to adopt the agency’s standard
                      information technology development approach. Finally, the office
                      has completed improvements to its infrastructure foundation;
                      however, efforts to modernize some of the agency’s critical
                      systems have been put on hold due to departmental consolidation
                      plans. As a result, systems are not integrated, do not meet user
                      requirements, and do not provide the information technology
                      capabilities agency personnel and its external partners need to
                      carry out disaster response and recovery operations in a timely or
                      effective manner.


   Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology 


                                             Page 1 

Background
                     The Federal Emergency Management Agency (FEMA) is the
                     federal coordinator to prepare for, prevent, respond to, and recover
                     from domestic disasters and emergencies. FEMA is responsible
                     for saving lives and protecting property and public health and
                     safety in a natural disaster, act of terrorism, or other manmade
                     disaster. To support its mission, FEMA had a budget of
                     approximately $10.5 billion for fiscal year (FY) 2010. This
                     represents approximately 19% of the Department of Homeland
                     Security’s (DHS) overall budget of $55.1 billion.

                     FEMA has more than 3,700 full-time employees located at FEMA
                     headquarters in Washington, DC, its ten regional offices, two area
                     offices, five recovery offices, and various sites across the country.
                     Additionally, FEMA has nearly 4,000 standby disaster assistance
                     employees who are available for disaster deployment. FEMA also
                     partners with other organizations that are part of the Nation’s
                     emergency management system, including 27 federal agencies,
                     state and local emergency management agencies, and the American
                     Red Cross.

                     FEMA consists of six primary components: Response and
                     Recovery, Federal Insurance and Mitigation, Protection and
                     National Preparedness, United States Fire Administration,
                     Regional Operations, and Mission Support, as shown in figure 1.
                     Each component has multiple directorates and program offices that
                     carry out disaster response missions and functions, as well as
                     administrative support.

                                                                                                              Administrator                                                  Protection
                                                                                                                                                                             Protect ion and Nat
                                                                                                                                                                                             National
                                                                                                                                                                                                 ional
                                                         Chief of Staff
                                                                                                                Deputy                                                           Preparedness
                                                                                                              Administrator


                                                Executive                                   Office of Equal                    Office of External                 Assistant                        Assistant
                                                Secretariat                                      Rights                              Affairs                    Administrator                    Administrator
                                                                                                                                                               Grant Programs                       National
                                            National Advisory                                                                                                                                    Preparedness
                                                 Council                               Office of Disability                   Office of Regional
                                                                                         Integration &                            Operations
                                                                                                                                                                 Assistant                     Director, Office of
                                                                                         Coordination
                                                                                                                                                                Administrator                   National Capital
                                                                                                                                                                  National                          Region
                                                                                        Law Enforcement                       Office of Policy and               Continuity                      Coordination
                                                                                            Advisor                           Program Analysis                   Programs




                                       Mission Support
                                       Mission                              U.S. F  ire
                                                                                  Fire                          Regions 1-X                   Federa
                                                                                                                                              Federall Insurance and                     Response and
                                                                          Adm inistration
                                                                          Administration                                                            M  itigation
                                                                                                                                                    Mitigation                             Recovery
                                                                          Adm  inistrator
                                                                          Administrator                                                          Adm    inistration
                                                                                                                                                 Administration


                         Office of Chief             Office of Chief                                                         Deputy Federa
                                                                                                                                       Federall                           Assistant                       Assistant
                        Financial Officer         Information Officer                                                    Insurance and Mi    tigation
                                                                                                                                          Mitigation                     Administrator                   Administrator
                                                                                                                         Adm  inistrator, Insurance
                                                                                                                         Administrator,                                   Response                        Recovery

                        Office of Chief              Office of Chief          Disaster Reserve                               Deputy Federal                            Director, Office of                Assistant
                        Administrative               Human Capital               Workforce                               Insurance and Mitigation                      FCO Operations                    Administrator
                            Officer                      Officer                                                         Administrator, Mitigation                                                         Logistics

                         Office of Chief             Office of Chief
                      Procurement Officer            Security Officer




                     Figure 1: FEMA Organizational Structure as of September 2010


  Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology

                                                                            Page 2
                   Within the Mission Support component, the Office of the Chief
                   Information Officer (OCIO) is responsible for providing the
                   information technology (IT) infrastructure to support FEMA’s
                   mission. In FY 2010, the FEMA OCIO employed nearly 500
                   federal employees and 319 contractors and had a budget of
                   approximately $113 million. As shown in figure 2, the office is
                   organized into two major divisions to administer IT functions and
                   services.

                                     Chief Information Officer



                            Deputy CIO for                   Deputy CIO for Operations
                            Administration


                      CIO Administration Division             CIO Operations Division



                         Business Operations                    IT Security Branch
                               Branch


                       Independent Verification              Software Development and
                        and Validation Branch                    Integration Branch


                      Governance and Investment          Architecture, Engineering,
                          Integration Branch             Enterprise Services Branch


                      Customer Advocate Branch           Operations Services Branch



                        Customer Service Unit            Regional IT Services Branch



                   Figure 2: OCIO Organizational Structure as of May 2010

                   IT systems play a critical role in supporting FEMA to accomplish
                   its response and recovery efforts. The OCIO supports FEMA’s
                   mission by enhancing and maintaining the IT infrastructure,
                   increasing efficiencies and cooperation across division and region
                   lines, and developing and enhancing key systems. FEMA has
                   approximately 90 operational systems used to provide support
                   across multiple programs. Although many of FEMA’s systems do
                   not solely belong to the OCIO, the OCIO partners with FEMA’s
                   program offices to provide support with systems development,
                   testing, implementation, and operations and maintenance efforts.
                   FEMA’s primary mission critical systems are listed below.




Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology

                                                    Page 3
                   Logistics Management Systems: FEMA’s Response component
                   uses a number of systems to support the procurement and delivery
                   of goods and services during disasters. Key systems include the
                   following:

                   •	 Logistics Information Management System III (LIMS III) – The
                      agency’s property/asset management system used to maintain
                      the inventory of equipment and supplies.
                   •	 Logistics Supply Chain Management System (LSCMS) –
                      [Previously known as Total Asset Visibility (TAV)] Provides
                      key supply chain management capabilities for
                      purchasing/ordering, order fulfillment, inventory maintenance,
                      transportation, and delivery and acceptance.
                   •	 eTasker – A web-based system that field personnel use to submit
                      requests for disaster resources such as commodities (e.g., water,
                      ice, and meals ready to eat), to FEMA headquarters. It also
                      coordinates information for requests that involve transportation
                      requirements.

                   Response and Recovery Systems: Includes disaster and
                   nondisaster systems implemented by FEMA’s Recovery
                   component to help the agency perform mission operations during
                   and after a disaster.

                   National Emergency Management Information System (NEMIS) –
                   The backbone system for response and recovery operations that
                   FEMA uses to electronically enter, record, and manage
                   information on registered applicants for disaster assistance,
                   obligations and payments, emergency management mission
                   assignments, and grants. NEMIS is composed of several modules:

                   •	 NEMIS Individual Assistance – Used to facilitate the
                      application process for disaster assistance.
                   •	 NEMIS Public Assistance – A web-based application used by
                      state and local governments to request federal assistance to
                      repair their damaged facilities and infrastructure in national
                      disasters as well as to track resulting project reviews,
                      approvals, and grants.
                   •	 Emergency Management Mission Integrated Environment
                      (EMMIE) – A single grants-processing system that serves all
                      grants within FEMA.

                   Mission Support Systems: Includes systems managed within the
                   Mission Support Component to support mission operations.



Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology 


                                          Page 4 

                         •	 Integrated Financial Management Information System (IFMIS)
                            – FEMA’s primary accounting general ledger, financial
                            management, acquisition, and disbursement system. It
                            forwards financial information to the Department of the
                            Treasury for payment of disaster assistance claims.
                         •	 ProTrac – The contract management and tracking software
                            used by the Acquisition Management Division of the OCIO.
                         •	 Automated Deployment Database (ADD) – Used to identify
                            and deploy personnel to disaster sites.

                         Effective management of these systems is important to ensure that
                         the technology can support disasters. In 2007, the OCIO began
                         focusing on efforts to better stabilize and integrate these IT
                         systems across the agency. In 2008, FEMA awarded a $1 billion
                         contract for Enterprise Application Development Integration and
                         Sustainment (EADIS), a range of application development
                         services, to help create a more integrated computer environment
                         for the operation of FEMA’s systems.

                         Historically, FEMA’s IT systems have not fully supported the
                         agency’s needs during major disasters. For example, major
                         hurricanes during 2004 and 2005 exposed numerous limitations in
                         FEMA’s IT foundation and system capabilities to support
                         emergency support operations. We have completed a number of
                         audits addressing FEMA’s use of IT to support mission operations:

                         •	    In a September 2005 report, we identified a number of IT
                               management issues limiting the agency’s effectiveness.1
                               Specifically, we found that system improvements and
                               additional IT user support were needed to better support
                               response and recovery operations. Also, we reported that
                               FEMA had not achieved alignment of its IT approach with
                               the DHS mission and plans. We recommended that FEMA
                               update its IT strategic plan; complete its enterprise
                               architecture; ensure that personnel receive systems training,
                               guidance, and communication; ensure participation in the
                               process to develop and maintain business and system
                               requirements; and develop and maintain a testing
                               environment and ensure that configuration management
                               activities are followed and documented.



1
 Emergency Preparedness and Response Could Better Integrate Information Technology with Incident
Response and Recovery, OIG-05-36, September 2005.


     Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology 


                                               Page 5 

                         •	    In December 2006, we reported that FEMA had demonstrated
                               short-term progress by increasing system capacity and online
                               system access, as well as developing a plan to implement
                               training improvements along with new business and IT tools.2
                               However, we found that significant challenges remained for
                               FEMA to establish a long-term strategic IT direction and to
                               define requirements for needed system modernization
                               improvements. Thus, all recommendations from the 2005
                               report remained open and no further recommendations were
                               issued.

                         •	    In May 2008, we reported that FEMA’s IT systems did not
                               support logistics activities effectively.3 We recommended
                               that FEMA finalize its logistics, strategic, and operation
                               plans; develop, communicate, and implement processes and
                               procedures; evaluate current IT systems to determine their
                               ability to support operations; and develop a strategy for
                               acquiring IT systems.

                         In addition, the Government Accountability Office (GAO) has
                         reviewed FEMA’s use of IT to support its mission operations. In a
                         November 2008 report, the GAO identified actions FEMA was
                         undertaking to implement the Post-Katrina Act.4 Specifically,
                         GAO reported that FEMA had initiatives in progress to improve
                         information sharing and communication between systems, such as
                         LIMS III, TAV, and ADD, by FY 2009. Also, in March 2009, the
                         GAO reported that FEMA had developed a TAV communications
                         plan, emphasized training for TAV, identified additional TAV
                         specialists, and was addressing connectivity issues needed to
                         improve operations.5




2
  FEMA’s Progress in Addressing Information Technology Management Weaknesses, OIG 07-17,
 

December 2006. 
 

3
  Logistics Information Systems Need to Be Strengthened at the Federal Emergency Management Agency, 
 

OIG-08-60, May 2008. 
 

4
  Actions to Implement the Post-Katrina Act, GAO-09-59R.
 

5
  Actions to Implement Select Provisions of the Post-Katrina Emergency Management Reform Act, 
 

GAO-09-433T. 
 



     Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology 


                                                Page 6 

Results of Audit

     FEMA Needs Effective IT Planning to Guide Modernization
     Efforts
              FEMA has a number of IT infrastructure modernization initiatives under
              way. However, FEMA does not have a clear end-state vision for
              modernization of its IT infrastructure and mission-critical systems.
              Specifically, FEMA does not yet have a comprehensive IT strategic plan
              to coordinate and prioritize modernization initiatives and IT projects. The
              existing plan does not include clearly defined goals and objectives, nor
              does it address program office IT strategic goals. In addition, FEMA has
              not completed its efforts to document the agency’s business functions,
              information resources, and IT systems as part of its baseline enterprise
              architecture. Without these elements in place, FEMA is challenged to
              establish an effective approach to modernize its IT infrastructure and
              systems.

                       FEMA IT Modernization Initiatives Are Under Way

                       FEMA is pursuing a number of initiatives to modernize its IT
                       infrastructure. Specifically, the OCIO has identified a number of
                       enterprise modernization efforts to implement over the next five
                       years, as detailed in figure 3.

                        Modernization           Description of Intended          Proposed Benefit
                        Projects Under Way      Functions
                        Transition to DHS’      Consolidate networks into        Increase efficiency and
                        OneNet                  DHS’ OneNet.                     standardization.
                        DHS Data Center         Reduce the number of             Ensure that each
                        Migration               existing data centers to two     mission-critical system
                                                secure, geographically           has disaster recovery,
                                                diverse locations to enhance     redundancy, and
                                                the department’s disaster        backup capabilities.
                                                recovery capabilities.           Reduce costs while
                                                FEMA will transfer               streamlining
                                                approximately 300 systems        maintenance and
                                                over the next five years.        support contracts.
                        EADIS                   Provide a full range of          Deliver secure,
                                                application services that will   service-enabled
                                                create an integrated             applications that share
                                                environment for the              mission-critical
                                                operation of FEMA’s              information across
                                                programs.                        organizational lines.




   Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology 
 


                                             Page 7 
 

                    Modernization           Description of Intended        Proposed Benefit
                    Projects Under Way      Functions
                    “One-One-One            Promote mobility for all       Improve mobility while
                    Program”                FEMA staff with one            improving data security
                                            notebook computer, one         and standardization of
                                            encrypted flash drive, and     equipment and
                                            one smart phone to each        software across the
                                            employee.                      agency.
                    Windows 7               Standard baseline image for    Reduce the number of
                    Operating System        desktops will use the          desktop images across
                                            Windows 7 operating            FEMA. Windows 7 is
                                            system.                        Federal Desktop Core
                                                                           Configuration
                                                                           compliant.
                    Alteris Monitoring      Deploy in conjunction with     Improve software
                    Tool                    Windows 7 to better manage     patch management and
                                            the desktop image.             license management
                                                                           capabilities.
                    Enterprise Shared       Provides a range of web        Increase adherence to
                    Workspace /             collaboration and              departmental standards
                    SharePoint              application capabilities.      and guidelines for
                                                                           intranet sites and
                                                                           streamline the web-
                                                                           hosting process.
                    Video                   Modernize FEMA’s               Improve
                    Teleconference          baseline infrastructure.       teleconference and
                    Capability                                             video capabilities for
                                                                           all regions.
                    New Email               Provide “email as a service”   Reduce email costs by
                    Capabilities            at Data Center 2.              half, increase email
                                                                           capacity, and add
                                                                           recovery, testing, and
                                                                           archival capabilities.
                    Consolidation of        Consolidate software           Realize a cost savings
                    Software Licenses       licenses.                      through consolidated
                                                                           enterprise and
                                                                           infrastructure software
                                                                           licenses.

                   Figure 3: OCIO’s IT Infrastructure Modernization Initiatives

                   Some of these initiatives began as a result of departmental
                   guidance, such as efforts associated with the transition of FEMA’s
                   networks to DHS OneNet and the DHS Data Center consolidation.
                   Specifically, in 2003, DHS began to consolidate its components’
                   existing infrastructures into DHS OneNet, a wide area network, for
                   a more efficient and standardized architecture. Also, the DHS
                   Chief Information Officer (CIO) established the “One
                   Infrastructure” vision to improve information sharing via an
                   enterprise-wide, consolidated data center IT infrastructure. The


Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology

                                          Page 8
                   objective of this initiative is to collocate and consolidate the
                   numerous disparate data center facilities that currently support the
                   DHS components.

                   Other IT infrastructure efforts were initiated in response to the
                   FEMA Administrator’s vision for more real-time, mobile
                   technology. For example, the “One-One-One Program” is meant
                   to increase mobile computing capabilities by providing one
                   notebook computer, one encrypted flash drive, and one smart
                   phone to each employee. According to the OCIO, this program
                   will also improve data security and will help standardize
                   equipment and software across the agency.

                   In addition to these IT infrastructure modernization initiatives,
                   FEMA is taking steps to replace some of its key mission systems.
                   For this, FEMA is working with DHS in its Transformation and
                   Systems Consolidation (TASC) initiative, which is intended to
                   consolidate and integrate systems essential to operations across
                   DHS. Four business functions, including budget, finance,
                   acquisition, and property will be included in this effort. According
                   to OCIO leadership, this initiative will serve as a replacement or
                   upgrade for a number of FEMA’s critical systems, including
                   IFMIS and LIMS III, which are used for finance and property
                   functions.

                   FEMA governs these efforts with enterprise processes and
                   management controls, such as program management offices,
                   working groups, and executive steering groups and committees for
                   decision making. For example, steering groups have been
                   established to help guide logistics supply chain, grants
                   management, and disaster management efforts.

                   Comprehensive IT Strategic Planning and Architecture
                   Is Needed

                   The OCIO has not performed the necessary planning activities to
                   guide its IT modernization efforts. Although the OCIO has a
                   management control structure in place to govern its key
                   modernization efforts, FEMA does not yet have a comprehensive
                   IT strategic plan, with well-defined goals, objectives, milestones,
                   and measures, to guide these activities. According to the Federal
                   Enterprise Architecture Practice Guide, the agency should only
                   make investments that move the agency toward the target
                   architecture, which should also be closely aligned with the



Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology

                                          Page 9
                          organization’s strategic plan.6 However, FEMA does not yet have
                          an effective IT strategic plan or a completed architecture that can
                          be used to guide and constrain IT development and modernization
                          efforts. Without these, the agency does not have a complete
                          picture of its strategic IT goals or a sequential plan to prioritize
                          modernization efforts.

                          IT Strategic Goals and Objectives Are Not Defined

                          A comprehensive IT strategic plan is key for guiding and
                          coordinating the agency’s modernization projects and IT activities.
                          The Government Performance and Results Act of 1993 holds
                          federal agencies responsible for strategic planning to ensure
                          efficient and effective operations and the use of resources to
                          achieve mission results.7 A strategic plan should provide guidance
                          for program activities by including outcome-related goals and
                          objectives and a description of how the goals and objectives will be
                          achieved. Further, DHS Management Directive (MD) 0007.1
                          requires component CIOs to develop and implement an IT strategic
                          plan.8 The plan should clearly define how IT supports an agency’s
                          mission and drives investment decisions, guiding the agency
                          toward its goals and priorities.

                          We reported in 2005 that FEMA had not yet demonstrated
                          effective IT strategic planning that was aligned with agency and
                          departmental direction.9 We recommended that FEMA update its
                          IT strategic plan in line with the FEMA strategic plan. To address
                          this shortfall, the OCIO completed its first official IT strategic
                          plan, the FEMA ITD Strategic Plan: FY 2009–2013.

                          The IT strategic plan was developed to align with the FEMA
                          Management Directorate Strategic Plan FY 2009–2011 and the
                          DHS IT Strategic Plan FY 2009–2013.10 To that end, FEMA’s IT
                          strategic plan is meant to address how the OCIO will accomplish
                          the goals listed in the FEMA and DHS strategic plans, as shown in
                          figure 4.


6
  Chief Information Officers Council, A Practical Guide to Federal Enterprise Architecture, February 2001.
7
  Public Law 103-62, Government Performance and Results Act of 1993, August 3, 1993.
8
  DHS, Management Directive 0007.1, Information Technology Integration and Management, March 15,
2007.
9
  Emergency Preparedness and Response Could Better Integrate Information Technology with Incident
 

Response and Recovery, OIG-05-36.
 

10
   FEMA, FEMA Management Directorate FY 2009–2011, October 2008; DHS OCIO, DHS IT Strategic 
 

Plan FY 2009–2013, January 2009. 
 



     Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology 


                                                 Page 10 

                            FEMA Management Directorate Strategic Plan FY 2009-2011 Goals
                                                                                                                                         DHS IT Strategic Plan FY2009-2013 Objectives:
                            Goal 1: Hi
                                     Hire,   Goal 2:           Goal 3:          Goa
                                                                                Goall 4: Prov
                                                                                          Proviide   Goal 5: Deve
                                                                                                             Devellop   Goal 6:
                            train, retain    Provi
                                             Provide a safe,   Provide          reliable,            a results-
                                                                                                       results-         Promote
                            and deploy a     secure, and       information,     integrated, and      oriented           behaviors      1. Infrastructure 2. Cyber   3. Information   4. Governance and 5. IT
                            ski
                            skilled          productive        resources, and   secure               business           focused on     Optim
                                                                                                                                       Optimiization     Security
                                                                                                                                                         Securi     Shar
                                                                                                                                                                    Shariing         Strateg
                                                                                                                                                                                     Strategiic        Human
                            workforce        work              support          communication
                                                                                communication        approach that      creating a                                                   Communicat
                                                                                                                                                                                     Communicatiions   Cap   tal
                                                                                                                                                                                                       Capiital
                                             environment       servi
                                                               services         and informati
                                                                                     information     enhances           customer
                                                                                systems              FEMA’
                                                                                                     FEMA’s mimissi
                                                                                                                ssion   servi
                                                                                                                        service
                                                                                                     success            env
                                                                                                                        enviironment




                                                                                            FEMA ITD Strategic Plan FY 2009 Through 2013
                                                                                                           Components in the IT Strategic Plan:
                                                                                                             hVision hMission hTheme
                                                                                                                h Supporting Enablers
                                                                                                                h Supporting Activities




                           Figure 4: IT Strategic Planning Approach

                           FEMA’s 2009–2013 IT plan includes an IT mission and theme.
                           Specifically, the mission of the OCIO is “to enhance and maintain
                           IT infrastructure; develop and enhance key systems to support
                           operating programs; and increase efficiencies and cooperation
                           across the FEMA directorate and regional lines.” The plan’s
                           overarching IT theme is to “empower emergency management and
                           preparedness.” The plan also describes how the OCIO will support
                           FEMA’s six Management Directorate goals. Finally, the plan
                           contains a high-level summary of activities, listed in an appendix,
                           to be executed during FY 2009–2013. For example, the plan lists
                           nearly 50 activities that were to be completed by FY 2013, such as
                           developing and retiring numerous IT systems.

                           Although FEMA’s IT strategic plan contains a high-level summary
                           of the IT efforts planned, it does not provide the detailed guidance
                           necessary for FEMA’s IT program activities. Specifically, it does
                           not include IT strategic goals or objectives to identify how IT will
                           be used to support agency-wide programs. According to Office of
                           Management and Budget (OMB) Circular A-130, the IT strategic
                           plan should provide a description of how IT activities help
                           accomplish agency missions.11 Thus, a strategic plan should include
                           results-oriented goals, objectives, and initiatives to specify which
                           actions to accomplish during a given period. For example, IT goals
                           address key areas of focus for the organization to realize the future
                           vision, while IT objectives describe the actions needed to achieve
                           each goal. Specific goals and objectives are critical for FEMA to
                           ensure that effective guidance is in place to coordinate the agency’s
                           numerous ongoing modernization projects and IT activities.

11
     OMB Circular A-130, Management of Federal Information Resources, November 28, 2000.


        Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology 


                                                                            Page 11 

                           IT Strategic Plan Does Not Include Program Office Initiatives

                           FEMA’s IT strategic plan is not a comprehensive plan for the
                           agency’s IT because it primarily addresses the IT initiatives that
                           are planned within the OCIO, and does not include numerous IT-
                           related efforts under way across FEMA’s program and regional
                           offices.

                           Some program offices have developed their own IT strategic plans.
                           For example, the Logistics Management Office developed a
                           strategic plan in 2009, which includes a strategic goal for IT
                           systems development.12 According to the plan, the directorate will
                           develop integrated logistics management systems. Four objectives
                           were established: to develop a logistics supply chain management
                           system, a property accountability system, an inventory
                           management system, and a maintenance management system.
                           Likewise, the Grant Programs Directorate Strategic Plan
                           FY 2009–2011 states that the directorate will bring together
                           various grant management systems to improve data collection and
                           analysis functions.13 The directorate has identified two specific
                           objectives aimed at implementing and releasing the Non-Disaster
                           Grants System. However, the FEMA IT strategic plan does not
                           identify the numerous efforts documented in program office
                           strategic plans such as these to ensure that major IT initiatives are
                           understood and managed appropriately.

                           Without an agency-wide IT strategy to bring together IT efforts,
                           FEMA is hindered in its ability to define an enterprise-wide vision
                           for modernizing IT infrastructure and systems to improve disaster
                           response capabilities. Likewise, there is no clear guidance to
                           emphasize which overarching technologies or programs are most
                           critical to support the agency. As a result, IT development and
                           operations activities are not prioritized. Instead, IT development
                           efforts are initiated by FEMA program offices to meet program-
                           level goals each fiscal year. For example, the Logistics Directorate
                           had four primary IT development efforts under way for FY 2010 to
                           support its goal to “develop integrated logistics management
                           systems.” Although the OCIO collaborates with the directorate on
                           these IT efforts, they are not tracked or prioritized against other
                           FEMA program efforts agency-wide.


12
     FEMA, Logistics Management Directorate Strategic Plan FY 2010–2014, September 2009.
13
     FEMA, Grant Programs Directorate Strategic Plan FY 2009–2011, October 2008.


        Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology 


                                                 Page 12 

                         OCIO officials said that the current IT strategic plan was
                         developed as an effort to focus on the mission support needs within
                         FEMA’s Management Directorate. The strategic planning
                         approach encouraged the OCIO to identify relevant issues on
                         which to focus, such as IT system availability, integration,
                         reporting, project management, and internal controls. However,
                         the CIO acknowledged that the current plan does not include an
                         overarching modernization approach. The CIO said that the
                         agency is aware of the importance of further developing its
                         strategic planning functions; however, there is a need to mature
                         these capabilities first. In the meantime, the OCIO is taking steps
                         to better understand program office needs, other customer needs,
                         and long-term plans by partnering with its customers to document
                         IT investment plans and participate in decision making.

                         In the absence of a comprehensive IT strategic plan, the OCIO and
                         its customers will continue to focus on immediate needs, rather
                         than addressing the long-term modernization efforts necessary to
                         improve disaster response operations. Additionally, until FEMA
                         develops such a plan, it faces an increased risk that the agency’s IT
                         modernization may not adequately meet its urgent mission needs.

                         Complete Enterprise Architecture Is Needed

                         According to GAO’s IT Investment Management Framework, an
                         effective IT investment management approach integrates strategic
                         planning and enterprise architecture to ensure that IT investments
                         directly support the fulfillment of the agency’s strategic goals and
                         objectives.14 For example, while the IT strategic plan establishes
                         direct linkage between agency strategic goals and its IT
                         investments, the enterprise architecture identifies what technology
                         is needed to support the agency, which enables alignment and
                         prioritization of investments.

                         The E-Government Act of 2002 requires that agencies develop an
                         enterprise architecture to govern their business processes and IT.15
                         However, significant work remains for FEMA to develop a
                         complete agency-wide architecture that can be used for disciplined
                         IT investment management decision making to guide and constrain
                         investments and to provide a blueprint for IT modernization.


14
   Information Technology Investment Management: A Framework for Assessing and Improving Process 
 

Maturity, GAO-04-394G, March 2004. 
 

15
   E-Government Act of 2002, Public Law 107-347, December 17, 2002. 
 



     Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology 


                                              Page 13 

                          Enterprise architecture is the discipline of capturing information
                          about the organization to support strategic planning, guiding
                          information technology investments, promoting better utilization
                          of enterprise resources, and minimizing redundancies and waste.
                          The OCIO has made progress toward establishing the agency’s
                          architecture and associated guidelines. Specifically, the OCIO has
                          established a dedicated Enterprise Architecture Office (EAO) to
                          oversee agency-wide architecture efforts. Recent efforts include
                          plans for a comprehensive baseline agency-wide architecture,
                          known as the FEMA Composite Architecture. According to the
                          EAO, architecture information has been gathered and documented
                          for some major infrastructure and systems applications, such as
                          grants management.

                          The OCIO has also established agency-wide architecture policies
                          and guidelines. In particular, the EAO has set up policies for
                          conducting system life cycle reviews as part of the OCIO’s
                          processes to approve or deny OMB “Exhibit 300”
                          documentation.16 For example, the EAO participates in detailed
                          reviews of business cases for IT solutions to ensure that system
                          development efforts comply with DHS architecture and security
                          guidelines. Additionally, the EAO has provided guidance on its
                          intranet site to support OMB “Exhibit 300” architecture-related
                          questions. The website also provides a list of technical standards
                          and product specifications to guide agency-wide IT purchases.

                          Although FEMA has made significant progress, the agency has not
                          completed efforts to document its business functions, information
                          resources, and IT systems as part of its baseline enterprise
                          architecture. IT architecture information remains undocumented
                          for many program areas. In addition, the EAO stated that the life
                          cycle review process needs to be further streamlined to reduce the
                          number of documents required as part of the review. Further, the
                          standards on the EAO’s web site are two to three years out of date.
                          For example, the printer and laptop specifications are dated 2007
                          and 2008, respectively.

                          The OCIO plans to complete the baseline architecture by 2012.
                          However, these efforts have been hindered by staffing and funding
                          shortages. The EAO’s current staff of five employees falls short of

16
  Exhibit 300s are documents by which project teams can demonstrate to OMB and agency management
that they have employed the disciplines of good project management, represented a strong business case,
and met other federal requirements to define the proposed cost, schedule, and performance goals for an
investment if funding approval is obtained.


     Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology 


                                                 Page 14 

                          its identified need for eight employees, plus additional contractor
                          support. Additionally, OCIO management said that the focus in
                          recent years, both in terms of staff and funds, has been on
                          providing IT solutions to meet high-priority disaster response
                          efforts, rather than on documenting its architecture. However, the
                          OCIO awarded a contract in May 2010 to help FEMA complete its
                          composite architecture effort.

                          In the absence of a completed agency-level architecture, FEMA
                          has relied on the DHS enterprise architecture to provide technical
                          guidelines. For example, FEMA is using the DHS Technical
                          Reference Model to facilitate its agency-level technology request
                          process. 17 This process is required to ensure that equipment and
                          software requests are allowed within DHS before FEMA makes a
                          purchase. However, the EAO said that the process is neither
                          efficient nor effective because of the outdated technology on the
                          DHS Technical Reference Model. According to the EAO, it takes
                          an average of two months to process a request to obtain approval to
                          add new technology to the model.

                          Without a comprehensive baseline architecture, the OCIO is
                          hindered in guiding IT investments toward a standardized and
                          integrated environment. The OCIO is further challenged by the
                          lack of a detailed IT strategic plan, which is needed to ensure that
                          the enterprise architecture is aligned with the organization’s IT
                          strategic goals. Without these elements in place, IT investment
                          decisions are made without clear rationale or prioritization, which
                          may lead to IT systems that do not meet the agency’s long-term
                          needs. Consequently, systems will continue to be created in an
                          independent and nonintegrated manner, resulting in an IT
                          environment with predominantly stand-alone functionality and an
                          inability to share data across systems.




17
  The Technical Reference Model is a technical framework that categorizes the standards and technologies
to support and enable the delivery of service components and capabilities.


     Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology 
 


                                                Page 15 
 

           IT Needs Throughout FEMA Are Not Well Understood

                   The OCIO does not yet have a good understanding of existing IT
                   resources and needs throughout FEMA. Specifically, FEMA does not
                   have a complete inventory of its systems to support disasters. Although
                   the OCIO has sought to establish a complete systems inventory, these
                   efforts have been hindered by multiple independent inventories that are
                   not shared across the organization. In addition, FEMA program and field
                   offices continue to develop IT systems independent of the OCIO because
                   of the way funds are managed for IT efforts. Furthermore, although the
                   OCIO established a standard IT development approach, FEMA has been
                   slow to adopt this process. IT systems developed without the oversight
                   and guidance of the OCIO may not provide the support needed to
                   coordinate activities effectively during major disasters.

                            IT Systems Inventory Is Not Complete

                            According to the Clinger-Cohen Act, the CIO is responsible for
                            developing, maintaining, and facilitating the implementation of an
                            integrated IT architecture, as well as promoting the effective and
                            efficient design and operation of all IT resources.18 Further,
                            according to DHS MD 0007.1, each DHS component CIO is
                            responsible for the effective management and administration of all
                            IT resources and assets to meet mission, department, and enterprise
                            program goals.

                            The effective management of agency-wide IT resources and assets
                            requires a complete and accurate inventory of systems. However,
                            the OCIO does not maintain a comprehensive list of all FEMA
                            program office and regional systems. Although the OCIO has
                            established an official systems inventory of approximately 90
                            operational systems, OCIO officials estimate that several hundred
                            “rogue” systems at FEMA regions are not yet captured on this
                            inventory.

                            Numerous separate inventories are maintained throughout the
                            agency, which hinders the OCIO’s ability to establish a complete
                            and accurate inventory of all FEMA systems. For example, the
                            Logistics Directorate maintains its systems inventory in its
                            Logistics Systems Group. The Recovery Office maintains an
                            inventory of IT systems and tools within the IT branch of its
                            program office. OCIO personnel estimate that the number of

18
     Public Law 104-106, February 10, 1996.


        Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology 


                                                 Page 16 

                        FEMA’s systems across all regional offices ranges from 90 to as
                        high as 700.

                        The OCIO recognizes the need to improve outreach efforts to IT
                        users and has established a number of methods to increase
                        awareness of the systems developed by program offices and
                        regional offices. For example, the OCIO has assigned each
                        program office a customer advocate. Customer advocates act as
                        liaisons between OCIO and program office IT personnel to
                        increase understanding of the IT systems in use and increase
                        partnership in IT efforts. The OCIO also uses methods such as
                        data calls to inquire about the systems in use. As additional
                        systems are discovered on FEMA’s network, the OCIO documents
                        each system and issues an authority to operate until proper security
                        protocol can be completed.

                        The OCIO is also creating a “scorecard” for each program office to
                        document all of the agency’s systems. The scorecard includes the
                        development and maintenance schedule and funding for each
                        system. For example, the Recovery Office scorecard includes 16
                        operational systems. Although these efforts have helped the OCIO
                        establish better visibility of IT systems, significant work remains
                        for the OCIO to establish a complete, comprehensive list of all
                        systems in use across FEMA.

                        Program and Regional Offices Fund and Develop Their Own
                        IT Systems

                        The way IT programs are funded and developed within FEMA has
                        hindered the OCIO’s efforts to establish a complete inventory and
                        manage IT capital planning and investment. Specifically, IT
                        development efforts are conducted throughout FEMA’s regional
                        and program offices. Although the OCIO has developed a standard
                        systems life cycle practice to be used for all IT projects, the
                        process has not yet been institutionalized throughout FEMA.

                        FEMA Program Offices Receive Direct Funding to Develop IT
                        Systems

                        The DHS CIO has responsibility for IT policy and programs, such
                        as IT capital planning and investment management functions.19
                        Additionally, according to DHS MD 0007.1, each DHS component

19
  Information Technology Management and Governance Processes Catalog, Department of Homeland
Security, Office of the Chief Information Officer, July 2009.


     Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology 


                                              Page 17 

                   CIO is responsible for preparing an IT budget that includes all of
                   the component’s IT activities.

                   OCIO officials said that the decentralization of IT funds and
                   development has been a major obstacle to effective management of
                   the IT environment. During FY 2010, FEMA spent $391 million
                   for agency-wide IT needs. OCIO IT spending of $113 million
                   accounted for only 29% of total spending. The program offices
                   spent approximately $278 million, which comprised the majority
                   of the agency’s IT-related spending, as shown in figure 5.

                      FEMA IT Spending for FY 2010
 

                             $391,000,000
 


                                                          OCIO Budget
 

                                                          $113,000,000
 

                                                             29%
 



                       Program
 

                     Office Budget
 

                     $278,000,000
 

                         71%
 


                   Figure 5: FEMA IT Spending for FY 2010

                   FEMA’s program offices receive funds for operations,
                   maintenance, and administration each fiscal year, including funds
                   that they use for independent IT efforts. For example, the
                   Recovery Office managed an IT budget of approximately $44
                   million in FY 2010; the Logistics and Management Division, $33
                   million; and the Mitigation Office, $34 million. Because they
                   receive direct funding for IT and do not have to rely on IT support
                   from the OCIO, program offices have historically developed IT
                   systems without input or guidance from the OCIO.

                   Deploying new systems on the network without prior OCIO
                   involvement creates concern as to whether the systems will operate
                   in the existing environment, meet security standards, or contain
                   redundant IT elements. For example, one FEMA directorate
                   attempted to develop an IT system without the involvement of the
                   OCIO. The directorate spent approximately $7.5 million on the
                   system, which ultimately was unable to meet FEMA’s security and
                   technical requirements. In another case, a regional office created a
                   Microsoft Access database to address the data-sharing limitations
                   between IFMIS and ProTrac. This tool was developed to help


Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology

                                         Page 18
                   synchronize the data and produce timely reports. Since its
                   creation, the database has been shared across multiple regions. To
                   the extent that such systems are networked, they pose potential
                   risks to infrastructure operations.

                   The OCIO has taken steps over the past two years to establish
                   policies and guidance for IT programs. Specifically, the OCIO has
                   been working to establish a process to streamline reviews of IT
                   spending. Accordingly, the CIO issued agency-wide guidance in
                   2008 requiring review and approval of all IT spending over
                   $10,000. FEMA’s Office of Procurements is responsible for
                   forwarding IT acquisition requests over $10,000 to the CIO for
                   review. However, without a more formal control mechanism in
                   place, FEMA programs are reluctant to comply with this process.

                   Systems Life Cycle Process Has Not Been Institutionalized

                   To comply with the DHS policy and procedural guidance for IT
                   management, the OCIO adopted a standard systems life cycle
                   process in 2008 for all IT projects. This process is based on the
                   DHS System Engineering Life Cycle (SELC) approach. The
                   OCIO is using its application development contract, EADIS, to
                   implement the process and to ensure that standardized practices are
                   followed in IT development efforts. Figure 6 shows the SELC
                   stages.
                                                 DHS System Engineering Life Cycle Stages

                    Stage 1:        Stage 2:        Stage 3:         Stage 4:       Stage 5:           Stage 6:        Stage 7:         Stage 8:
                    Planning      Requirements      Design         Development    Integration &     Implementation    Operations &     Disposition
                                   Definition                                         Test                            Maintenance


                     Plan the     Analyze user      Transform       Convert the    Integrate and    System moved to   The systems is   The system
                    project and     needs and     requirements       system       test with other     Production       operated to     is disposed
                      acquire       document       into detailed    design into      systems;        environment;       carry out
                    resources       functional        system         system       conduct UAT;      Production data     intended
                    needed to     requirements        design                       develop C&A      has been loaded      function
                     achieve
                     solution



                   Figure 6: DHS SELC Stages

                   In 2008, the OCIO directed all FEMA organizations to use the
                   SELC process for IT projects. Since that time, FEMA has steadily
                   increased the number of IT projects using this approach. As of
                   July 2010, approximately 35 projects were being managed within
                   the EADIS structure. However, these projects do not account for
                   all IT development work currently under way across FEMA.

                   The OCIO stated that FEMA program offices have been reluctant
                   to employ the SELC approach due to increases in the costs for
                   EADIS support. IT development support using this approach has


Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology

                                                    Page 19
                   higher costs than similar OCIO services provided in the past. This
                   is due to the fees associated with EADIS contract services, such as
                   the use of dedicated production and hosting environments.
                   Consequently, numerous program offices told us that IT project
                   costs have increased by approximately 50% since using EADIS
                   support. One program office faced an increase from $2.7 million
                   to $6.4 million to gather requirements and develop the web-
                   enabling capability for the NEMIS system.

                   Concerns over the additional time spent to complete IT
                   development steps required for the SELC process have also
                   prevented some program offices from using this process. One
                   program office said that it prefers its “rapid development
                   approach” for IT development, which allows for quicker
                   deployment for the new tools needed to support mission efforts.
                   However, this approach does not comply with departmental IT
                   development standards associated with the SELC, such as
                   documenting requirements and conducting testing.

                   Because of such concerns, some program offices continue to use
                   their own IT development methodologies. For example, one
                   program office has built applications using its “rapid development
                   approach.” According to personnel in this office, information-
                   sharing and reporting tools have been developed using this
                   approach.

                   IT systems developed using methodologies outside of the SELC
                   and without OCIO involvement may not align with mission,
                   department, and enterprise program goals. The systems may not
                   meet department-wide requirements, may create potential security
                   risks, or may duplicate other efforts. More important, such
                   systems may not provide the support needed to coordinate
                   activities effectively during major disasters.




Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology

                                         Page 20
          IT Infrastructure Improvements Have Been Made, But Further
          Improvements Are on Hold

                   The OCIO has completed a number of improvements to enhance its IT
                   infrastructure foundation and disaster response system capabilities.
                   However, efforts to modernize some of the agency’s critical mission
                   support systems have been put on hold due to department-wide
                   consolidation plans and the reduction of funding for these systems. As a
                   result, the legacy systems do not provide the functionality needed to
                   support FEMA’s disaster response mission operations in a timely and
                   effective manner.

                           IT Improvements Have Been Made

                           FEMA has completed a number of improvements to its IT
                           infrastructure and systems. For example, the OCIO has taken steps
                           to improve its IT infrastructure foundation by strengthening
                           security, improving the IT development environment, increasing
                           network bandwidth and connectivity, and updating the
                           infrastructure supporting response and recovery IT capabilities.
                           FEMA has also improved its disaster response system capabilities.

                           Infrastructure Improvements

                           To improve desktop computing capabilities and security, the OCIO
                           established an agency-wide desktop image, which was deployed to
                           FEMA computers in FY 2009. FEMA has improved its email
                           capabilities by increasing capacity and adding recovery, testing,
                           and archival capabilities, thus reducing email costs. The OCIO has
                           improved its telephone services by adding text messaging, global
                           positioning capabilities, and data services. Additionally, the OCIO
                           has centralized the management and provisioning of services for its
                           video teleconferencing capability and upgraded the hardware and
                           management processes. The OCIO has also reduced high-risk
                           vulnerabilities on its network and increased efforts to ensure that
                           all new applications receive official authority-to-operate
                           certificates before being placed on FEMA’s network. Finally, the
                           OCIO has improved FEMA’s security posture by maintaining a
                           Federal Information Security Management Act score above 90%.20
                           This achievement surpassed the OCIO’s initial target of 90% for
                           FY 2009, as identified in its IT Strategic Plan FY 2009–2013.

20
     DHS FISMA, Fiscal Year 2009 FISMA Report and Privacy Management Report, November 2009.


        Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology 


                                                 Page 21 

                         The OCIO has also improved the IT development process by
                         establishing a dedicated testing environment to ensure that
                         configuration management activities are followed and documented
                         during IT development efforts. Specifically, two new complete
                         testing environments were put into operation in FY 2009, which
                         represent approximately 50 FEMA systems. This improvement
                         also addresses recommendations made in our 2005 report to
                         develop and maintain a testing environment that ensures that all
                         systems components are properly and thoroughly tested.21

                         Furthermore, the OCIO has taken steps to improve its network
                         bandwidth and connectivity. For example, FEMA is participating
                         in a department-wide effort to consolidate its IT infrastructure into
                         DHS OneNet, a wide area network. As of June 2010, the OCIO
                         had completed the transition of all network connections at its
                         regional sites to DHS OneNet. According to the OCIO, this has
                         improved network throughput and increased security, enabling
                         FEMA personnel to share information more securely across a
                         common DHS network platform.

                         FEMA has also made progress in updating the infrastructure
                         supporting response and recovery IT capabilities. For example, the
                         OCIO completed a consolidation of NEMIS servers in June 2010.
                         This effort reduced the number of servers, previously located at all
                         ten regional offices, to three, resulting in increased system
                         availability, improved network performance, and better system
                         security.

                         System Improvements

                         FEMA has replaced its TAV system with LSCMS. This effort
                         replaced paper-based processes and a multitude of outdated
                         disaster property and commodities management systems, providing
                         updated information for timely decision making.

                         FEMA also enhanced the NEMIS Public Assistance module by
                         adding the EMMIE web application in 2007. This web-based
                         module is currently used by the Public Assistance program to
                         manage grants for disasters and will be expanded to the Mitigation
                         program. The EMMIE module benefits FEMA personnel by
                         providing better authentication, authorization, and accessibility.

21
  Emergency Preparedness and Response Could Better Integrate Information Technology with Incident
Response and Recovery, OIG-05-36.


     Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology 


                                              Page 22 

                   Additionally, FEMA enhanced the NEMIS Individual Assistance
                   module as follows:

                   •	 NEMIS registration intake functions were put online using a
                      web-based capability called the Disaster Assistance
                      Improvement Program. This program provides a single, online
                      access point for individuals requiring assistance, and also
                      provides online registration and status-tracking capabilities.
                   •	 The Direct Assistance Replacement Assistance Consideration
                      system replaced the FEMA Response and Recovery Applicant
                      Tracking System in 2007, resulting in a consolidation of 50
                      Microsoft Access databases. The Direct Assistance system can
                      automatically populate data, such as the applicant’s address,
                      once key information is entered in the system, resulting in a
                      reduction of handling time per call.
                   •	 The Document Management and Records Tracking System
                      replaced the ViewStar system to read and process incoming
                      mail from applicants. The implementation of the document
                      management system increased security as well as the speed of
                      data and image retrieval, resulting in saved time.

                   Further System Improvements Are on Hold

                   The OCIO identified the need to modernize IT assets onto a
                   common, stable platform and to integrate its mission-critical
                   systems as part of its 2007 “critical imperatives.” Although FEMA
                   has improved its IT infrastructure and its disaster response system,
                   significant work remains for FEMA to complete the system
                   modernization upgrades that are needed to integrate the agency’s
                   critical mission support systems and improve their functionality.

                   FEMA has been challenged to modernize its systems in order to
                   achieve integration due to plans for a department-wide integrated
                   asset management, financial, and acquisition solution.
                   Specifically, FEMA personnel are working with DHS officials on
                   the TASC initiative to achieve a department-wide integrated asset
                   management, financial, and acquisition solution. This initiative
                   will provide enterprise applications that will likely replace the
                   LIMS III, IFMIS, and ProTrac systems by 2014. Although FEMA
                   is scheduled to be the first to receive the new TASC solution, the
                   department has not yet confirmed the dates when each system will
                   be replaced. Additionally, the department’s detailed plans, such as
                   the selection of new applications, are not known. In the meantime,
                   FEMA is not able to plan or fund system upgrades, which are

Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology

                                         Page 23
                   needed to ensure that IT can support FEMA’s disaster response
                   mission operations in a timely and effective manner.

                   Funding has been reduced for the systems that will be replaced as
                   part of the DHS TASC initiative. Specifically, funding to support
                   LIMS III has fallen over the past three years. For example, annual
                   funding to support development, operations, and maintenance for
                   LIMS III prior to 2008 was approximately $1 million. However,
                   funding was reduced to about $420,000 in FY 2010. Consequently,
                   LIMS III has received only minor enhancements during that time.
                   FEMA has expended minimal resources for system operations and
                   maintenance to provide the basic property management functions
                   needed. An OCIO official said that FEMA’s goal is to sustain the
                   system until the transition to the department’s TASC solution.

                   Likewise, funding to improve IFMIS reporting capabilities and
                   achieve integration with FEMA’s acquisition functions has been
                   limited. An OCIO official said that, although IFMIS has been kept
                   as up-to-date as possible with modifications and enhancements, a
                   major overhaul or system replacement is necessary to meet surging
                   high-volume disaster support requirements. However, the agency
                   is unable to perform significant enhancements because of
                   decreased funding for IFMIS development efforts. For example,
                   the Office of the Chief Financial Officer received $5.34 million for
                   program support in FY 2009; however, this was reduced to $4.85
                   million in FY 2011. FEMA is also constrained by the increasing
                   cost of the IFMIS software updates, which are expensive because
                   of its 20-year-old technology. Consequently, FEMA was
                   instructed to refrain from major system upgrades or additional
                   development until the DHS TASC solution is implemented.

                   FEMA Technology Does Not Effectively Support Operations

                   Federal regulations require that agencies plan in an integrated
                   manner for managing IT throughout its life cycle. Specifically,
                   according to DHS MD 0007.1, the component CIO shares
                   accountability with the Under Secretary for Management for
                   successful planning and implementation of functional integration.
                   Furthermore, according to the Clinger-Cohen Act of 1996, the CIO
                   is responsible for developing, maintaining, and facilitating the
                   implementation of a sound and integrated information technology
                   architecture for the agency.

                   FEMA’s IT application environment has evolved to include a
                   number of legacy mission systems that do not effectively meet user


Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology

                                         Page 24
                         requirements. Specifically, FEMA’s mission-critical systems are
                         not integrated, and FEMA personnel must still perform some tasks
                         manually.

                         Critical Systems Are Not Integrated

                         The OCIO said that integration is needed across a number of
                         FEMA’s essential operational functions, including asset
                         management, financial management, and acquisitions. However,
                         FEMA’s mission-critical systems, such as LIMS III, LSCMS,
                         ADD, IFMIS, and ProTrac, operate with predominantly stand-
                         alone functionality and cannot perform integrated functions.

                         For example, FEMA has not integrated the systems used in its
                         property inventory and supply chain processes. In 2008, we
                         reported that FEMA did not have a comprehensive system to
                         account for its commodities and provide real-time awareness.22
                         FEMA is still challenged by the fragmentation of data across
                         multiple logistics systems. Specifically, the property management
                         system, LIMS III, and the supply chain management system,
                         LSCMS, are not integrated. Most commodities, such as IT
                         equipment and furniture, are tracked in both systems, with staff
                         performing the same functions in each system. Because inventory
                         and tracking data do not automatically feed from LSCMS into
                         LIMS III, users must manually enter data in LIMS III to close out
                         an order. Consequently, the processes for shipping and receiving
                         are labor-intensive and redundant. Also, the information in LIMS
                         III is not timely or accurate because data are not automatically
                         shared between LIMS III and LSCMS as commodities are shipped.
                         For example, when trucks are dispatched from a supplier, the
                         shipment does not show up in LIMS III until FEMA personnel
                         receive the shipment. Personnel must manually update LIMS III
                         as shipments are received. Until this step is completed, data in
                         LIMS III will not reflect recently received shipments.

                         Similarly, FEMA has not integrated systems to support personnel
                         and property management functions. We previously reported that
                         FEMA’s personnel deployment system, ADD, and its property
                         management system, LIMS III, did not support effective or
                         efficient coordination of deployment operations.23 FEMA
22
   Logistics Information Systems Need to Be Strengthened at the Federal Emergency Management Agency,
OIG-08-60.
23
   Emergency Preparedness and Response Could Better Integrate Information Technology with Incident
Response and Recovery, OIG-05-36; Logistics Information Systems Need to Be Strengthened at the Federal
Emergency Management Agency, OIG-08-60.


     Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology 


                                               Page 25 

                   employees must still complete a number of steps to manually
                   check in and obtain property, such as IT equipment, at a disaster
                   site. Although FEMA has made minor improvements to each
                   system, the agency has not yet implemented an interface between
                   ADD and LIMS III, and there are no plans to develop an interface
                   at this time. Until an effective link between the personnel and
                   property management systems is established, FEMA faces
                   additional work and potential losses due to inefficient management
                   of property and personnel.

                   FEMA’s ability to track and manage disaster-related funds is
                   hindered by the fact that IFMIS, the financial system, and ProTrac,
                   the acquisitions system, are not integrated. Combined, these
                   systems handle 80% of budget disaster funds. However, each
                   system operates on a different technical platform, with financial
                   data updates sent to each system at different times. As a result, the
                   two systems are operating without synchronized data, and field
                   office employees must manually track and reconcile funds that are
                   allocated across different disaster activities. Additionally, manual
                   steps are required to deobligate excess funds after requisitions are
                   completed. This step should be done automatically; however,
                   personnel performed manual deobligations that totaled $21 million
                   for FY 2010 disaster funds.

                   Limited Integration With FEMA’s Stakeholders

                   Integration with external disaster response stakeholders and
                   partners has not yet been achieved. Integration between FEMA
                   and its partners is critical in order to improve timely mission
                   operations during disaster situations. This is particularly important
                   as FEMA is the national “coordinator” during emergencies.

                   FEMA’s IT systems are not able to integrate with its stakeholders’
                   systems. For example, FEMA does not have an electronic
                   capability for states to use when requesting assistance during
                   disasters. Instead, to request federal assistance from FEMA, states
                   use a paper Action Request Form. After the form is faxed, FEMA
                   personnel enter request information into a tracking system that is
                   intended to track the request through disposition. FEMA officials
                   said that most states are now using web-enabled systems that
                   provide capabilities for automated requests and real-time
                   information sharing during disasters. Accordingly, the Response
                   Directorate is planning to implement an electronic processing
                   capability for Action Request Forms in FY 2011.



Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology 


                                         Page 26 

                   FEMA must improve its ability to work with its external partners,
                   such as the Defense Logistics Agency, United States Army Corps
                   of Engineers, and General Services Administration, to improve
                   real-time sharing of assets and commodities tracking. To address
                   this need, FEMA is currently working with its external partners to
                   identify system interfaces between its LSCMS systems and
                   external logistics systems to automate the order-to-receipt process.
                   In addition, FEMA has made progress in other areas, such as its
                   web-based EMMIE system, to allow state and local applicants to
                   electronically apply for and track funds. However, until FEMA
                   achieves electronic integration with its partners, they will be
                   unable to achieve real-time total asset visibility and disaster funds
                   tracking.

                   Inefficient Manual Processes Remain

                   In addition to the lack of integration, some systems do not provide
                   needed automatic functions. For example, a number of functions
                   must be completed manually outside of NEMIS. Although NEMIS
                   eGrants is supposed to be an electronic system of records, it does
                   not have a closeout module. Without a closeout capability, FEMA
                   personnel must rely on paper forms and manual data entry to
                   finalize grants in the system. During 2010, FEMA was unable to
                   conduct electronic closeouts for approximately 187 Pre-Disaster
                   Mitigation Grants. Additionally, officials in the Mitigation
                   Directorate said that they must rely on a paper-based application
                   process for the Hazard Mitigation Grant Program. Although
                   NEMIS eGrants is used to process grants, applications are prepared
                   and submitted on paper forms. As a result, according to FEMA’s
                   Mitigation office, an average of 100 to 200 paper applications are
                   received during each disaster, which must be manually entered into
                   the system.

                   In the absence of up-to-date IT capabilities, users must rely on
                   systems that do not effectively meet their requirements, resulting in
                   the need to modify processes or resort to manual work-arounds.
                   These manual work-arounds, or informal processes, may suffice
                   during minor events; however, they may not sustain the increased
                   workload and level of information sharing required to support
                   major disasters.




Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology 


                                         Page 27 

           Conclusion
                   Although FEMA has begun a number of necessary modernization
                   efforts, the OCIO has not yet completed effective IT planning
                   activities, such as establishing an IT strategic plan or a baseline
                   enterprise architecture. The development of an IT strategic plan
                   that includes clearly defined agency-wide goals and objectives and
                   the completion of FEMA’s enterprise architecture are necessary to
                   guide and constrain IT development and modernization efforts.
                   Such plans are necessary for the agency to effectively coordinate
                   IT projects and activities across its program and regional offices to
                   ensure that IT investments are supporting FEMA’s mission.

                   The OCIO is gaining a better understanding of its customers’ IT
                   needs. Recent efforts to establish an official systems inventory are
                   an important step toward consolidating the numerous system
                   inventories that are currently maintained across the organization.
                   However, FEMA’s program offices and regional offices continue
                   to develop IT systems independent of the OCIO due in part to
                   decentralized IT budget and acquisition practices. The OCIO has
                   sought to provide agency-wide guidance for IT development
                   efforts by establishing a standard IT life cycle approach. Yet
                   progress in implementing this approach, as part of its enterprise
                   application development support contract, has been slow, owing to
                   increasing costs and the time required to complete IT development
                   as part of the new process.

                   Since our last audit in 2008, FEMA has completed a number of IT
                   infrastructure upgrades to improve security, desktop standards,
                   network bandwidth, and the IT development environment. The
                   agency has also completed system enhancements to provide new
                   disaster response capabilities, such as an online registration web
                   site. However, limited progress has been made in modernizing the
                   agency’s critical mission support systems. Such efforts have been
                   on hold until department-wide consolidation plans are further
                   established. As a result, FEMA’s legacy systems are not able to
                   effectively support disaster response functions in a timely and
                   effective manner.




Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology

                                         Page 28
           Recommendations
                   We recommend that the Chief Information Officer, FEMA:

                   Recommendation #1: Develop a comprehensive IT strategic plan
                   with clearly defined goals and objectives to support program IT
                   initiatives.

                   Recommendation #2: Complete and implement a FEMA
                   enterprise architecture to establish technical standards and
                   guidelines for systems acquisitions and investment decisions.

                   Recommendation #3: Establish and maintain a complete,
                   comprehensive enterprise IT systems inventory.

                   Recommendation #4: Establish an agency-wide IT budget
                   planning process to include all FEMA program technology
                   initiatives and requirements.

                   Recommendation #5: Obtain agency-wide IT investment review
                   authority to ensure that all IT initiatives and systems development
                   efforts align with FEMA’s mission.

                   Recommendation #6: Establish a consolidated modernization
                   approach for FEMA’s mission-critical IT systems, to include DHS
                   plans for integrated asset management, financial, and acquisition
                   solutions.




Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology

                                         Page 29
           Management Comments and OIG Analysis
                   We obtained written comments on a draft of this report from the
                   Chief Information Officer for FEMA. We have included a copy of
                   the comments in their entirety in Appendix B.

                   In the comments, the FEMA Chief Information Officer concurred
                   with our recommendations in general; however, the Chief
                   Information Officer also expressed concern that the report does not
                   sufficiently acknowledge IT modernization improvements made
                   since 2008 and does not include sufficient measurable criteria to
                   evaluate progress made. The Chief Information Officer provided
                   comments on specific areas within the report to address these
                   concerns. We have reviewed management’s comments and made
                   changes to the report as appropriate. The following is an
                   evaluation of the issues raised, as outlined in the comments
                   provided by FEMA.

                   In the comments, the FEMA Chief Information Officer expressed
                   concern over the exclusion of progress made by the organization
                   since 2008. Specifically, the Chief Information Officer provided
                   an overview of FEMA’s efforts to modernize its infrastructure,
                   services, and systems. The overview includes a number of specific
                   enterprise, business, and mission-related modernization initiatives
                   as well as FEMA’s measure of economy, efficiency, and
                   effectiveness for each. We are aware of these efforts underway at
                   FEMA. We have modified the report as appropriate to include
                   additional enterprise, business, and mission-related modernization
                   efforts. In addition, we have included FEMA’s approach for
                   managing IT modernization efforts with enterprise processes and
                   program management structures.

                   The FEMA Chief Information Officer also expressed concern with
                   the audit report methodology used to measure progress and risk,
                   using categories such as “economy, efficiency, and effectiveness.”
                   Specifically, the FEMA Chief Information Officer stated that the
                   current IT Strategic Plan and Enterprise Architecture provide
                   adequate guidance for modernization efforts. However, we do not
                   agree that FEMA’s current management controls are adequate to
                   guide and constrain IT development and modernization efforts. As
                   part of our audit methodology, we applied specific departmental
                   criteria with which each component is required to comply in regard
                   to IT Strategic Planning and Enterprise Architecture, such as DHS
                   Management Directive 0007.1, E-Government Act of 2002,


Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology 


                                         Page 30 

                   Clinger-Cohen Act of 1996, and Government Performance and
                   Results Act of 1993.

                   Finally, the FEMA Chief Information Officer expressed concern
                   with the report findings for technology that does not effectively
                   support operations, and stated that system requirements and
                   processes should be validated to reflect FEMA’s current
                   integration needs. However, we believe that the lack of integration
                   causes ineffective workflow. Additionally, during our meeting
                   with the FEMA Chief Information Officer, she expressed the
                   importance of integrating FEMA’s mission systems. Furthermore,
                   personnel in the field stressed the need to integrate systems to
                   improve workflow.

                   Report Recommendations

                   The FEMA Chief Information Officer agreed with the
                   recommendations in general, however, also proposed editorial
                   changes to the wording of the recommendations.

                   In response to recommendations 1–3, the Chief Information
                   Officer proposed that the wording of the recommendations be
                   changed to combine recommendations 1, 2, and 3. We
                   acknowledge FEMA’s rationale to focus on IT strategy and its
                   plans to define strategic goals that can be linked to modernization
                   activities. However, we do not agree with combining these
                   recommendations, as doing so would make it difficult to measure
                   progress. We will keep the recommendations as they are to
                   individually track corrective actions taken by management to
                   resolve each recommendation.

                   In response to recommendations 4–6, the Chief Information
                   Officer proposed that the wording of the recommendations be
                   changed to combine recommendations 4, 5, and 6. We
                   acknowledge FEMA’s efforts to integrate agency-wide program
                   planning and activities, as well as its plans to ensure that IT
                   investments support agency mission goals. However, we do not
                   agree with combining these recommendations, as doing so would
                   make it difficult to measure progress. We will keep the
                   recommendations as they are to individually track corrective
                   actions taken by management to resolve each recommendation.




Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology

                                         Page 31
Appendix A
Purpose, Scope, and Methodology


                       We conducted an audit to determine whether FEMA’s IT
                       modernization approach adequately addresses planning,
                       implementation, and management to support efficient and effective
                       disaster relief assistance.

                       We researched and reviewed federal laws and executive guidance
                       related to FEMA’s support of IT systems, IT management, and
                       CIO governance. We obtained published reports, documents, and
                       news articles regarding the DHS CIO operations and IT
                       management throughout the department. Additionally, we
                       reviewed recent GAO and DHS OIG reports to identify prior
                       findings and recommendations. We used this information to
                       establish a data collection approach that consisted of focused
                       interviews, documentation analysis, and system demonstrations to
                       accomplish our audit objectives.

                       We held interviews at FEMA headquarters and regional offices.
                       We also conducted teleconferences with FEMA officials at field
                       offices throughout the United States. Collectively, we interviewed
                       more than 60 FEMA headquarters officials, field management
                       officials, and system users to learn about FEMA’s IT functions,
                       processes, and capabilities. At headquarters, we met with FEMA
                       OCIO officials including the CIO, deputy CIOs, branch chiefs,
                       program managers, and delivery managers to discuss their roles
                       and responsibilities related to FEMA IT management and IT
                       infrastructure modernization. At the regional offices, we met with
                       a division director, IT branch chiefs, IT specialists, program area
                       specialists, system specialists, and system users to understand IT
                       development practices, user requirements, and system use in the
                       field. We discussed the current IT infrastructure and
                       modernization efforts, local IT development practices, and user
                       involvement and communication with headquarters. We collected
                       supporting documents about FEMA’s IT structure, IT management
                       functions, current initiatives, and future plans for modernization.

                       We conducted audit fieldwork from July to October 2010 at FEMA
                       headquarters in Washington, DC; FEMA regional offices in
                       Denton, Texas, and Atlanta, Georgia; a National Processing
                       Service Center in Denton, Texas; and a long-term recovery office
                       in New Orleans, Louisiana. We performed our work according to
                       generally accepted government auditing standards. Those
                       standards require that we plan and perform the audit to obtain
                       sufficient appropriate evidence to provide a reasonable basis for

    Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology

                                             Page 32
Appendix A
Purpose, Scope, and Methodology


                       our findings and conclusions based on our audit objectives. We
                       believe that the evidence obtained provides a reasonable basis for
                       our findings and conclusions, based on our audit objectives.

                       The principal OIG points of contact for this audit are Frank Deffer,
                       Assistant Inspector General for Information Technology Audits,
                       and Richard Harsche, Director of Information Management. Major
                       OIG contributors to the audit are identified in Appendix C.




    Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology 


                                             Page 33 

Appendix B
Management Comments to the Draft Report


                                                                                           U.S.   ~partmc:ol   or Homc:bod S«urity
                                                                                           Washington. OC 20472




          MEMORANOUM FOR:                   Frank Defter




          FROM:
                                            Audits

                                            Jean A. Etzel
                                                                    &y/
                                            Assistant Inspector General for Information Technology


                                                                 ~a
                                            Chief Informa on Officer
                                            Federal Emef ency Management Agency

          SUBJECT:                          Comments to Draft Inspector General (IG) Report, "Federal
                                            Emergency Management Agency Faces Challenges in Modernizing
                                            Information Technology" - For Official Use Only, DIG Project No. 10-
                                            141-ITA-FEMA

                   Thank you for giving us the opportunity to address our concerns with the Draft Inspector
          General (IG) Report, "Federal Emergency Management Agency Faces Challenges in Modernizing
          Information Technology." We offer our comments in the spirit of continuing to enhance the
          economic and efficient use of Information Technology (IT) within the Federal Emergency
          Management Agency (FEMA), implementing the effective management of the same, and at the
          same time providing important critical feedback concerning the report itself and the process that
          led to its creation. In general, the Office of Chief Information Officer (OCIO) agrees with the
          recommendations the IG makes. All organizations should plan (Recommendation #1), have in place
          the foundational documentation for analysis and decision making (Recommendations #2 and 3),
          and establish processes by which to make those decisions (Recommendations #4, 5 and 6). In any
          well-run IT organization, the three items that form the foundation for the recommendations-
          planning, foundational documentation, established processes-are subject to evaluation on a
          continual basis with the intent of making enhancements and improvements to keep ahead of
          changes in the technological environment.
                  The OClO, however, disagrees with the manner in which the narrative characterizes the
          present state of affairs at FEMA, primarily because it downplays or ignores the substantive and
          quantifiable progress that the organization has made since the IG's last visit in 2008. Over the past
          three years FEMA has undertaken important initiatives and made great progress in modernizing IT
          infrastructure, services, and systems. These initiatives fall into three major functional areas:
                                             1
          enterprise, business, and mission. In FEMA's IT management framework, each ofthe three major
          functional areas has categories.


          1The enterprise functional area includes: e-Mail, Telephone (wireless. wireline, and satellite), Network
          (communications and security), Computing (processing, storage, web), End-User Standards, Collaboration (operational
          and data), Analysis and Reporting, and service Management. The business functional area includes: Budget, Finance,
                                                                                           ww"'.fcma.gov




    Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology 


                                                            Page 34 

Appendix B
Management Comments to the Draft Report




                In the enterprise functional area, for example, FEMA has undertaken substantive
          modernization efforts in 7 of 8 categories. The results of these efforts are measurable
          improvements in economy, efficiency, and effectiveness. One category, Analysis and Reporting,
          remains a work in progress, but has seen improvements in its own right. The table below
          summarizes some of the more significant improvements:
              Enterprise
                                     Measures                                 Examples                                 Impact
          ModernIzatIon Effort
                                  Economy         Mailbox costs reduced from about $170 to about $84 per war.
                                                  Streamlines provisioning. billing. and closeout processes.
                                  Efficiency
                                                  FEMA is lead user for Oeoartment. Service managed at DC2.
          e=mail                                                                                                        Hilh
                                                  Adds larger mailboxes, testing environment, automated
                                  EffectiveneSS   archiving and retrieval, and disaster recovery capabilities;
                                                  desiened to scale rapidly when needed.
                                  Economy         Reduced overall costs by approximately $9M.
                                                  Centralized management of service. Reduced contracting
                                  EffIciency
          Telephone                               actions from 600 per year to an average of 12.                         Hi&h
                                                  Added teKt messaging. GPS. and data services. Added back-up
                                  Effectiveness
                                                  drcuits and signal amplifICation to FEMA locationS.
                                                  Obtained SharePoint per user rates of approKimately $48 per
                                  Economy
                                                  user per year.
                                                  Streamlines provisioning and hosting processes for
                                  Efficiency      organizational webpages. FEMA is lead user and implementing
          Collaboration                           with the Department. service managed at DC2.                           High
                                                  5harePoint solution otters full range of capabilities, including
                                                  web pages, collaboration sites, and ".net" based applications.
                                  Effectiveness
                                                  Office CommuniC3tions Server-Provides video c;hat for
                                                  imQ(omotu meetings from work station to work station.
                                  Economy         N.w
                                  Efficiency      Centralized management and provisioning of services.
          VTC                                                                                                            Hi&h
                                                  Upgraded hardware and management processes increased
                                  Effectiveness
                                                  number of possible c;onnections from 152 to 480.
                                  Economy         TBO
                                                  Data warehouse and operational data store placed under
          Analysis and
                                  Effidency       management controls in the enterprise sohware development             low (In
          Reporting (Enterprise
                                                  c;ontract to eliminate duplicative processes.                        Progress)
          Data Warehouse}
                                                  ~veloplnfl concept oloperations and business case to
                                  Effectiveness
                                                  support OMrations and sustainment In tM future.
                                  Economy         OneNet overall costs sli htly hi her.
                                                  Integrated management with the Department'S network and
                                  Efficiency
                                                  5ef;Urity operations centetl.
          Network jOneNet)                                                                                               HCh
                                                  Divenity of lines going into all fixed sites ensures continuity in
                                  Effectiveness   the event of an outage. Increased throughput. Access
                                                  protected by Trusted Internet COnnections.
                                                  Reduces hardware ~footprinr" at DC2 systems no longer
                                  Economy
                                                  required to have separate hardware. Cost savings TBD.
                                                  Streamlines provisioning and hosting processes. FEMA is lead
          ~                       Efficiency
                                                  user for Department. service managed at OC2.
                                                                                                                         High

                                                  Provides integrated target "environment" for FEMA's
                                  Effectiveness
                                                  applications. Target is rapidly scalable and resilient.




          Acquisition, Property, Human capital, Executive Correspondence Management, and learning Management. The
          mission functional area includes: Incident Management, Risk Management, Grants Management, Disaster Property and
          Commodities Management, Preparedness (lessons learned and exercise management), Alerts and Warning, and
          Emergency Communications.
                                                                        2




    Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology 


                                                                Page 35 

Appendix B
Management Comments to the Draft Report




              Enterprise
                                    Measures                                Examples                                 Impact
          ModernizatIon Effort
                                                 Rem~ Final      T80: enterprist!-"-wide implementation reduces
                                                 cost of help desk or trouble ticketing.
                                 Economy
                                                 A1tiris TBO: will reduce costs for licenses and number of
                                                 employees performing patching.
                                                 Remedy: Consolidates helpdesks to the Enterprise service
          IT service
                                                 Desk. Eliminated 13 so far. 6 more scheduled for FY 11.            Medium (In
          Management             Efficiency
                                                 Attiris: Consolidates patch management and frees up resources       Progress)
          {Remedy and Altiris)
                                                 in the Regions who would otherwise be doing the patching.
                                                 Remedy: provides enterprise·wide help desk management,
                                                 analysis, and reporting.
                                 Effectiveness
                                                 Altiris: provides capability to manage licenses actively, and to
                                                 manage image and security patching.

                  In the business functional area, 6 of 7 categories have a solid foundation in and strong
          integration with the Department's efforts. Four of the categories, Budget, Finance, Acquisition, and
          Property, are part of the Department's Transformation and System Consolidation (lASe) effort, the
          business case for which has shown projections for improvements in economy, efficiency, and
          effectiveness. One category, Learning Management, is under analysis presently by its proponent,
          with the assistance of the OClO, to plan for· its modernization_ 2
               Busmess
                                    Measures                                Ekamples                                  Impact
          ModernizatIon Effort
                                 Economy         New
                                                 Eliminated manual process. Fits within DHS's larger HC
          USA Staffing {Human    Efficiency
                                                 framework.                                                          Medium
          capital (He)
                                                 In FY10 reduced time to recruit and fill positions from 9 to 2
                                 Effectiveness
                                                 months.
                                 Economy          N~

                                                 Eliminated manual process. RMOnline part of Transformation
                                 EffICiency
          RMOniine (Budget)                      and S~tems Consolidation (TASe) solution.                             Hilh
                                                 Provides budget formulation and ekecution capability FEMA
                                 Effectiveness
                                                 never had before.
                                                 Reduced O&M cost from $S.5M to $2.SM. Future economies
                                 Economy
                                                 TBO-TASe business case anticipates economies.
          IFMIS (Financel                                                                                              Hilh
                                 Efficiency      Consolidated from two systems (G&T and Core) to one.
                                 Effectiveness    Added robust disaster recovery capability.
                                 Economy          TBO TASC business case anticipates economies.
                                                  Replacement (TASC) provides integrated Department-wide              Low (In
          lIMS (Property)        Efficiency
                                                  solution.                                                          Progress}
                                 Effectiveness    Moving to 0C2 to reduce hosting and hardware costs.
                                                  TBO but expected to yield economies based on
                                 Economy
                                                  consolidation.
                                                  Project underway to consolidate learning management
                                                  systems. The project was chartered in 8/9 and the estimated         Low (In
          learning Management    Eftkiency
                                                  date of completion is 1 to 1 )S years from the date of contract    Progfrs5}
                                                  award. Business case analysis expected to be completed 5/11.
                                                  Present system on upgraded hardware. Test environment
                                 Effectiveness
                                                  implemented.
                                 Economy          low cost ($800 per license) Department-wide solution.
          ~(hecutive
                                 Efficiency       Integrates with OHS solution. leverages OH$ contract.                High
          Correspondence)
                                 Effectiveness    Improves functionality over previous system.



          2 1n January 2011, during the inaugural FEMA$tat session, the Associate Administrator for Preparedness identified the
          need to put a plan in place "to gUide and constrain IT development and rnoderni2ation efforts" with regard to learning
          Management Systems.
                                                                       3




    Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology 


                                                               Page 36 

Appendix B
Management Comments to the Draft Report




               Business
                                       Measures                                     Examples                                    Impact
          Modernization Effort
                                    Economy             New
          Automated Purchase                            Eliminates paper-based transactions. Streamlines multiple             Medium (In
                                    EffICiency
          Requisitions                                  business processes used across different program offICes.              Progress)
                                    Effectiveness       Improves tracking.. accountability, and reporting capabilities.

                  The mission functional area remains the most dynamic but has also seen significant
          improvements in economy, efficiency, and effectiveness. In the Disaster Property and
          Commodities Management category, in December 2010 for example, FEMA implemented a
          modern system (Logistics Supply Chain Management System) to achieve economy, efficiency, and
          effectiveness. As another example, the IT~based components of FEMA's RiskMap, a project in the
          Risk Management category, have transitioned to the Department's Data Center #2 to achieve
          significant economy, efficiency, and effectiveness.

                 MISSion
                                             Measures                                     Examples                                   Impact
           Moc:Iernlzatlon Effort
                                      Economy                    TBD
          Non-Disaster Grants (NO     EffICiency                 Will consolidate Oill non-disaster grants onto one system.
                                                                                                                              Low (In Progras)
          Grants System)                                         Will improve tracking, accountOibility, and reporting
                                      Effectiveness
                                                                 cOipabilities.
                                                                 RiskMOiP: Move to De2 reduces costs $5OOK per month.
                                                                 Expected savings in FY12 are $3.7M.
                                      Economy
                                                                 NFIP: TBD
          Risk Management
                                                                 RiskMap: Consolidated major infrastructure components          RiskMap: High
          (RiskMap and National
                                      Efficiency                 to DC2.                                                        NFIP: Low (In
          Flood Insurance
                                                                 NFIP: Termlnot~d NutG~n s)'Strm.                                Progress}
          Program)
                                                                 RiskMap: updates infrastructure and provides improved
                                                                 disaster recovery capability.
                                      Effectiveness
                                                                 NFIP: DrrwlopfMnt of new S}'Stt'm placed ",ndff direct
                                                                 aD mono~metltCOIItrolJ.
                                      Economy                    New Replaced Total Asset Visibility
                                                                 Replaces paper based and multitude of outdated
          Disaster Property and       Efficiency                 disaster propertY and commodities management
                                                                                                                                      High
          Commodities IlSCMS)                                    systems.
                                                                 Provides updated information for timely decision
                                      Effectiveness
                                                                 making.
                                      Economy                    Teo
          Preparedness (IPAWS)        Efficiency                 Will share services platform with DAIP.                      Low (In Progress)
                                      Effectiveness              TBD
                                      Economy                    T8D: Pilot and proof of concept underwa .                    TBD:initiaf
          Incident Management                                    T8D: Will consolidate data feeds from multiple               copabifiti~ will   be
                                      Efficiency
          IllMID                                                 independent systems.                                         t~sted during   NU-
                                      Effectiveness              New                                                          11.
                                                                 IA (Disaster Assistance Improvement Program (DAIP)):
          Disaster Grants                                        TBO                                                                DAlP: Hich
          (Individual Assistance                                 IA (National Emergency Management Information                 IA (NEMIS): Low
                                      Economy
          (IA) and Public                                        System (NEMIS)J: TaO                                            (In Progrns)
          Assistance (PA) Grants)                                PA (Emergency Management Mission Integrated                  PA (EMMIE): Low
                                                                 Environment (EMMIE)): TBD




                                                                             4




    Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology 


                                                                       Page 37 

Appendix B
Management Comments to the Draft Report




                MISSIon
                                         Measures                                  Examples                             Impact
           Modermzatlon Effort
                                                           lA (DAIP): Provides ~single point of entry" for services
                                                           provided by 17 Federal Agencies
                                                           lA (NEMIS): Capital plan outlines infrastructure
                                                           improvements. Softwarr ckwlopnwnt pIocftJ Unckr
                                   Efficiency              monoge'~nt      controls In the ~nt~rprls~softwo~
                                                           d~lopm~ntcontroct       to trode proj«t ~rformana.
                                                           PA (EMMIE): ploc~d under montlfl~~nt controls in th~
                                                           ent~rpris~ softworr dewlopment contrad to traclc
                                                           praject ~rjofmOtlC~.
                                                           IA (DAIP): Can be scaled to intake 200,000 registrants in
                                                           a 24 hour period. Recognized by Federal cia for its
                                                           effectiveness as an ~intake'" point for claimants. Copied
                                   Effectiveness           for gulf oil disaster.


                                                           _n!.
                                                           IA (HEMIS): tnfrostrueturr improwment plotln~d.
                                                           PA (EMMIE): Anolysis underway to det~rmlM poth


                 So how does FEMA manage the risk associated with IT modernization efforts in general and
          the dynamic nature of the mission functional area?3 It does so with enterprise processes and
          standards integration with the Department; and management controls, such as Program or Project
          Management Offices (PMOs), Executive Steering Groups and Committees, and Working Groups
                                                                              4
          that report up the functional leadership chain for decision making. In the tables above, all of the
          underlined modernization efforts have such a committee or group associated with them. All of the
          enterprise functional area categories and activities are integrated with and governed by the
          Department's overall modernization efforts. In some cases, such as e-Mail, computing, and
          collaboration, FEMA has been the "lead user" for the Department taking the lead to design,
          develop, test, and implement modernized services that achieve measureable economy, efficiency,
                                                    s
          and effectiveness across the Department. In other enterprise functional area activities, such as
          network security services, FEMA has integrated with the Department's lead user, Customs and
          Border Patrol, to achieve measureable economy, efficiency, and effectiveness.

                  In the business functional area, the TASC steering group governs activities associated with
          modernization efforts related to the budget, finance, acquisition and property categories. FEMA
          has a lASC PMO and a steering committee that manages activities within the Agency. Activities
          associated with the Human Capital category are managed by a Department-level steering group,
                                                                             6
          which is chaired by the Department's Chief Human Capital Officer. The mission functional area,
          with a few exceptions, follows suit with executive steering groups or PMOs overseeing
          development and investment decisions. The exceptions, such as Alerts and Warnings, and


          J One of the major weaknesses in the report's methodology is that it neither addresses putative issues with measures
          that quantify risk, nor does it offer a basis of comparison for categories such as "'economy, efficiency, effectiveness."
          For example. stating that "the agency should only make investments that move the agency toward a target
          architecture, which should also be closely aligned with the organization's strategic plan" because of a 1993 law does
          not offer a quantifiable characterization of risk or a basis for comparison to state whether an organization has made
          progress in achieving "economy. efficiency, and effectiveness."
          4 Addresses issues identified by the IG in 2006 and 2008.

          s "lead User" is a term used to describe organizations or people who are at the forefront of creative problem solving
          and innovation.
          6 A memorandum issued by the Department's Deputy Secretary further halts all component-independent He
          development efforts.
                                                                       5




    Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology 


                                                               Page 38 

Appendix B
Management Comments to the Draft Report




          Preparedness, are gUided by an Office of Management and Budget approved capital plan (Alerts
          and Warnings) or have been identified by senior leadership as needing to have formal governance
          processes instituted (Preparedness).7
                   The aforementioned groups, committees, PMOs, etc., have charters or other types of
          formal guidance documentation. The FEMA CIO, or an OCIO senior leader, participates actively in
          each of the groups. Sanctioned IT activities are undertaken within and governed by the framework
          of the System's Engineering Lifecycle and a common (integrated) set of design, development, test,
          and implementation standards, and executed within contracts managed or overseen by the OCIO.
          In this context, (the aforementioned palpable and significant evidence of making progress in
          achieving "economy, efficiency, and effectiveness" in comparison to previous 16 reports;
          established governance processes; and direct leadership involvement) statements such as "FEMA
          does not yet have an effective IT strategic plan or completed architecture that can be used to guide
          and constrain IT development and modernization efforts...." have much less of an impact. The
          recommendations as stated in the 16 report address much less of a risk. In this context the strategy
                                                     H
          has been set, the "target architecture has been defined to a workable level of "completeness" or
          put within manageable parameters, and the investment decision process instituted.
                  The FEMA ClO recognizes that the aforementioned conditions do not in and of themselves
          create an ideal IT modernization environment and that challenges remain. For example, FEMA's
          innovators often expend IT resources without coordinating within their own program offices and
          without regard for enterprise considerations, such as investment planning and systems integration.
          Two important examples show that senior leaders recognize this problem. One of the examples is
          the Department Deputy Secretary's guidance with regard to Human Capital system development
          efforts. The other, is the FEMA Administrator's, and Associate Administrator for Response and
          Recovery's guidance regarding the management of the all development activities within FEMA's
          mission functional area. Both examples recognize the need to "guide" modernization while at the
          same time meet functional or urgent mission needs. Both examples recognize the universal
          problem of unsanctioned IT spending and development, and seek to control it.

                  The challenge for the Agency in this case becomes keeping apace or ahead of and
          implementing improved technologies to meet dynamic "local" requirements, in the context of
          enterprise needs, in an environment constrained by monolithic acquisition processes and arcane
          security standards. The Agency has to cultivate creativity and turn it into IT innovation for the
          ultimate benefit of a disaster survivor and the enterprise. This challenge requires leadership
          involvement across the continuum of management levels, rather than a static "complete list of
          systems" or an ambiguous "complete enterprise architecture." The CIO's oversight responsibilities
          are one part of a triad, a triad which also includes individual employee personal accountability, and
          as noted above, involvement across the leadership continuum.
                  The narrative in the 16 report also seems to carry a system's bias, which leads to statements
          that are not supported by evidence such as, "FEMA Technology Does Not Effectively Support
                                                                8
          Operations," and other methodological weaknesses. Rather than validating whether a
          requirement actually exists or a process has been sanctioned by leadership across the enterprise,


          7See FEMAStat note above.
          8The focus of the report seems to be on systems rather than validating requirements and improving processes, which
          points to another weakness in the report's methodology.
                                                                   6




    Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology 


                                                            Page 39 

Appendix B
Management Comments to the Draft Report




          the report cites the example that critical systems such as "ADD" and "L1MS-III" amongst other
          systems, are not integrated, when in fact the Agency's intended, documented, and leadership-
          acknowledged "target architecture" does not seek to integrate these two "systems."g Recognizing
          that the requirements and processes for managing deployed personnel were not coherent, and
          that the functionality ADD provides was probably not sufficient, in Fiscal Year 2010, FEMA's CCHeQ
          and ClO awarded a work order to investigate and address this specific need. The "target
          architecture" for the property management functionality that L1MS is supposed to support will be
                                 lO
          implemented in TASC. Continued references to needing to integrate these "systems," indicates
          that this purported "FEMA IT challenge" was based on incorrect and outdated information.
                  In summary, the FEMA CIa agrees with the recommendations in general. All well run
          organizations need to plan, and have foundational documentation and established processes.
          These items need to be evaluated, refined, and re-communicated continually_ The report reminds
          the cia that the Agency's IT strategy needs to be updated and re·communicated to FEMA's staff
          and program offices. Challenges do remain. The CIO disagrees with the characterization of those
          challenges with regard to IT modernization. The report downplays or ignores significant,
          quantifiable IT modernization improvements in each of FEMA's IT major functional areas-
          enterprise, business, mission. And, instead offers no measureable criteria by which to evaluate
          "economy, efficiency, and effectiveness;" or risk, and refers to anecdotes and anachronistic
          systems and processes as evidence to support its conclusions.
                  In this vein, FEMA comments on the report's recommendations are as follows.

          Recommendation #1: Develop a comprehensive IT strategic plan with clearly defined goals and
          objectives to support program IT initiatives.
          The FEMA CIO suggests changing the recommendation to: Update the IT strategy that supports
          the Agency's ongoing and planned mission activities. The IT strategy should show the relationship
          between the existing IT environment, a desired target state, and the technical standards and
          guidelines for acquisition and investment decisions.
          Rationale: the revised recommendation captures the essence of recommendations 1, 2, and 3 and
          focuses on keeping the IT strategy current rather than completing it, which in present day terms
          would be too static, blunt innovation, and not recognize the dynamic nature of mission needs.
          Actions the FEMA CIO will take: The FEMA cIa will establish an interactive website that defines
          strategic goals for major functional areas that support sanctioned mission goals and needs, arid
          provides links to the modernization management structures and specific activities occurring in
          those areas. The site will document the existing IT environment, a desired target state, and the
          technical standards and gUidelines for acquisition and investment decisions in those areas. The
          website will have an interactive process for feedback (WIKI, Blog, etc.). leaders of individual
          activities will be responsible for revising the content of their planning, foundational
          documentation, and established processes, as needed.
          Recommendations #2 & 3: See revised recommendation #1 above.


          9 ADD refers to the Automated Deployment Database and UMS-III refers to the Logistics Information Management
          System Ill.

                                                                 7




    Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology 


                                                           Page 40 

Appendix B
Management Comments to the Draft Report




          Recommendation #4: Establish on agency-wide IT budget planning process to include all FEMA
          program technology initiatives and requirements.
          The FEMA CIO suggests changing the recommendation to: Enforce the agency-wide budget
          planning process that guides IT investment decisions.
          Rationale: the revised recommendation recognizes that a process already exists and requires
          integration of Agency-wide program planning and activities, and involvement across the leadership
          continuum rather than proscriptive "IT policies."
          Actions the FEMA CIO will take: The FEMA CIO will continue to meet with senior leaders in
          enterprise, business, and mission areas to ensure IT investments support Agency mission goals.
          Meetings will be held on a quarterly basis and the results of the meetings will be posted to the
          interactive IT strategy website.
          Recommendation #5: See revised recommendation #4 above.
          Recommendation #6: See revised recommendation #1 above.




                                                             8




    Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology 


                                                      Page 41 

Appendix C
Major Contributors to this Report

                       Information Management Division

                       Richard Harsche, Division Director
                       Kristen Evans, Audit Manager
                       Swati Nijhawan, Auditor-in-Charge
                       Erin Dunham, Auditor
                       BriElle Bryson, Intern
                       Thomas Rohrback, Referencer




    Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology

                                             Page 42
Appendix D
Report Distribution

                        Department of Homeland Security

                        Secretary
                        Deputy Secretary
                        Chief of Staff
                        Deputy Chief of Staff
                        General Counsel
                        Executive Secretariat
                        Director, GAO/OIG Liaison Office
                        FEMA, Administrator
                        FEMA, Deputy Administrator
                        FEMA, Chief Information Officer
                        Acting Deputy Director of External Affairs
                        Deputy Director of the Office of Policy & Program Analysis
                        FEMA Liaison

                        Office of Management and Budget

                        Chief, Homeland Security Branch
                        DHS OIG Budget Examiner

                        Congress

                        Congressional Oversight and Appropriations Committees, as
                        appropriate




    Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology 
 


                                              Page 43 
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
